            V
 ARTwoRl(s.
         orrs.gov




                                                                  L -12-03(c)
 March5,2012

  TheHonorableDanell Issa
  Chairman
                                         Reform
  Housecommitteeon oversightandGovernmental
  2157RayburnHouseOfficeBuilding,
           DC 20515
  Washington,

  Re:     Officeof InspectorGeneralReviewof NEA Compliance
                   t


  DearChairmanIssa,
                                                                   andthe office of Management and
   TheImproperPayments             InformationAc,toPIA)of 20021
                                                                                      Internal
                                                                      Responsibitityfor       control"
  Budget(oMB) Circura, A-l23,Appendixc, Maiagement's                                      require
  Requirements      for EffectiveMeasurement          andRemediation ImproperPaymenfs'
                                                                    of
                                                                          aresusceptible significant
                                                                                        to
  agencies     to reviewuti frogr*s andactivities,identifythosethat
                                                                  amountof erroneouspaymentsmadein
  enoneouspayments,anddeterminean annuaiestimated
                                                                    P.aymentsEliminationandRecovery
  thosepayments.TheIPIA wasfollowedby theImprgpe.r
  l c l ( I PE R A )i n 2 0 l 0 a n d a se ri e sofoMB- .m o,anda,includinganupdatetoCir c ul ar A.| 23,
  whichestablished        newrequirements                   on improperpayments'
                                                 for agencies

                                          performance andAccountabilityReport,that"overthe
   TheNEA reportedin its November2011
                                 of improp.,payments  madehasbeenbelowthethreshold(less
   pastthreeyears,thepercentage                                           of NEA's improper
                                                              occurrence
              andall paymentsfoundfra#Ueenrecovered'"The
    thanl.2o/o),
   payments                                     of improperpayments'whichis definedby oMB
            is well u.to* the significant-standard                                $100million,
                                                                 or, alternatively,
   guidance u, .*...oing sio mition unaz.iplr.enr ortotarorttuyr           to reviewfor
                                                         not haveanything
            theNEA office of Inspecto,c.*rut (oIG) did
   therefore,
   compliance  underIPERA'

   Thankyou'




     onieJones
    InspectorGeneral

    ' P.L. l ll-204.
Notionql Endowmentfor the Arts
TheNoncyHonksCenter
ll00 Pennsylvonio
               AvenueNW
WoshingtonDC20506-0001
cc:   TheHon. JosephL Lieberman
      TheHon.SusanM. Collins
      TheHon.Elijah Cummings
      Mr. GeneL. Dodaro,ComptrollerGeneral
      Mr. DannyWerfel,Controller
      NEA ChairmanRoccoLandesman
